         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Audit Report




       Agency-Wide Application of
       Region 7 NPDES Program
       Process Improvements Could
       Increase EPA Efficiency
       Report No. 11-P-0315

       July 6, 2011
Report Contributors:                               Richard Eyermann
                                                   Mike Davis
                                                   Marcia Hirt-Reigeluth
                                                   Jennifer Hutkoff
                                                   Yeon Kim
                                                   Heather Layne




Abbreviations

ACS 	           Annual Commitment System
BPI 	           Business process improvement
CWA 	           Clean Water Act of 1972
ECOS         	  Environmental Council of the States
EPA 	           U.S. Environmental Protection Agency
FY           	  Fiscal year
ICIS-NPDES 	    Integrated Compliance Information System for the National Pollutant
                Discharge Elimination System
MOU 	           Memorandum of understanding
NEPPS         	 National Environmental Performance Partnership System
NPDES 	         National Pollutant Discharge Elimination System
NPM           	 National program manager
OECA 	          Office of Enforcement and Compliance Assurance
OIG 	           Office of Inspector General
OP	             Office of Policy
OW	             Office of Water
PCS 	           Permit Compliance System
PQR 	           Permit Quality Review
SRF 	           State Review Framework




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       703-347-8330                                       Mailcode 8431P (Room N-4330)
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                                                                                                            11-P-0315
                       U.S. Environmental Protection Agency                                                July 6, 2011
                       Office of Inspector General


                       At a Glance
                                                                            Catalyst for Improving the Environment


Why We Did This Review            Agency-Wide Application of Region 7
We conducted this audit to        NPDES Program Process Improvements
determine what improvements       Could Increase EPA Efficiency
from the Region 7 Kaizen
event for the National            What We Found
Pollutant Discharge
Elimination System (NPDES)        Although Region 7 NPDES Kaizen event participants continued to follow up on
program can be applied on a       the commitments and action items identified, no single authority was responsible
wider scale, what barriers        for tracking the process improvement outcomes. Also, EPA did not have a process
existed in the development        to develop and track quantifiable results and outcomes from the event. Further,
and implementation of event       EPA encountered barriers involving scope, performance measures,
results, and what lessons were    implementation, and accountability when planning the Kaizen event. While EPA
learned from the event.           and states collaborated to create guidance for Kaizen events, such as the lean
                                  starter kit and primer, EPA did not, nor was it required to, use them to assure that
Background                        barriers were overcome in the execution of the Region 7 event.

In August 2008, U.S.              The EPA Administrator’s January 2010 memorandum, “Our Top Priorities,” as
Environmental Protection          well as other recent EPA and state initiatives, discuss the need to improve internal
Agency (EPA) headquarters,        operations and/or conduct more Kaizen events with the states to more efficiently
Region 7, and Region 7 states     protect the environment and public health. The Region 7 Kaizen event for the
conducted a Kaizen (i.e., rapid   NPDES program identified three process improvements (resolution of technical
process improvement) event to     issues and communication, permitting and enforcement oversight reviews of
improve the effectiveness and     states, and annual strategic planning) and one implementation action (data
efficiency of the NPDES           collection and reporting) that can potentially be implemented in other regions.
program. The event resulted in    Agency-wide permitting process changes could result in better communication;
redesigned processes for          time and cost savings in the states; and avoidance of duplicate inspections,
planning inspections and          reviews, and data reporting. Using lessons learned from the Region 7 Kaizen event
issuing permits that better       can increase the potential benefits achieved in future process improvement efforts.
address crucial technical
issues and provide for greater    What We Recommend
collaboration between EPA
and states.                       We recommend that the Deputy Administrator direct the Office of Water and
                                  Office of Enforcement and Compliance Assurance to identify process
                                  improvements from the Region 7 Kaizen event that can be applied elsewhere. We
For further information,
contact our Office of
                                  further recommend that the Deputy Administrator direct the Office of Policy to
Congressional, Public Affairs     develop a national policy on how to plan, design, and implement business process
and Management at                 improvement events; and direct the 10 regions to work with the Offices of Water,
(202) 566-2391.                   Enforcement and Compliance Assurance, and Policy to implement recommended
                                  process improvements. In replying to the draft report, the Deputy Administrator
The full report is at:
www.epa.gov/oig/reports/2011/     agreed with applying the results more widely but did not fully respond to our
20110706-11-P-0315.pdf            recommendations on developing national policy.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                              THE INSPECTOR GENERAL




                                           July 6, 2011

MEMORANDUM

SUBJECT:	          Agency-Wide Application of Region 7 NPDES Program
                   Process Improvements Could Increase EPA Efficiency
                   Report No. 11-P-0315


FROM:              Arthur A. Elkins, Jr.
                   Inspector General

TO:                Bob Perciasepe
                   Deputy Administrator


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated direct labor and travel costs for this report are $346,100.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective action plan for agreed-upon
actions, including milestone dates. Your response will be posted on the OIG’s public website,
along with our memorandum commenting on your response. Your response should be provided
as an Adobe PDF file that complies with the accessibility requirements of Section 508 of the
Rehabilitation Act of 1973, as amended. The final response should not contain data that you do
not want to be released to the public; if your response contains such data, you should identify the
data for redaction or removal. We have no objections to the further release of this report to the
public. We will post this report to our website at http://www.epa.gov/oig.

 If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General, at (202) 566-0899 or heist.melissa@epa.gov; or Richard Eyermann
at (202) 566-0565 or eyermann.richard@epa.gov.
Agency-Wide Application of Region 7 NPDES Program                                                                       11-P-0315
Process Improvements Could Increase EPA Efficiency




                                  Table of Contents 


Chapters
   1	   Introduction ........................................................................................................     1


                Purpose ......................................................................................................    1     

                Background ................................................................................................       1     

                Noteworthy Achievements ..........................................................................                3     

                Scope and Methodology ..............................................................................              3     


   2	   Region 7 Kaizen Event Identified Process Improvements 

        That Should Be Transferred to Other Regions................................................                               4


                EPA and States Emphasizing Process Improvement .................................                                  4

                Region 7 Permitting and Oversight Review Improvements
                     Not Applied Nationally .......................................................................               5

                Region 7 Strategic Planning and Data Reporting Improvements
                     Not Fully Implemented by Region 7 and EPA Headquarters ............                                          9

                Conclusion ..................................................................................................    12     

                Recommendations .....................................................................................            13     

                Agency Comments and OIG Evaluation ......................................................                        13 


   3	   Barriers Encountered During the Region 7 Kaizen Event and 

        Lessons Learned ...............................................................................................          15 


                Business Process Improvements Should Be Sought Via
                      Well-Planned Lean Events ................................................................                  15 

                Barriers to the Region 7 NPDES Kaizen Event ...........................................                          16 

                National Policy Needed for Business Process Improvement ......................                                   18 

                Conclusion...................................................................................................    19     

                Recommendations .....................................................................................            19 

                Agency Comments and OIG Evaluation ......................................................                        20 


   Status of Recommendations and Potential Monetary Benefits..............................                                       21 




Appendices
   A	   EPA Response and OIG Evaluation..................................................................                        22


   B	   Distribution .........................................................................................................   34

                                  Chapter 1

                                   Introduction
Purpose
            The U.S. Environmental Protection Agency (EPA) reported that from 1999
            through 2009, the number of National Pollutant Discharge Elimination System
            (NPDES) permittees increased over 200 percent, from 372,700 to more than
            950,000, due to court decisions and new regulations. Further, while expanding in
            number, permits have also become more complex. Because of the increased
            workload associated with these permits and the tightening of federal and state
            budgets, the states in Region 7 requested that EPA hold a Kaizen event to
            determine whether opportunities existed to improve NPDES program efficiency.
            We conducted an audit of the Kaizen event to determine:

               	 What improvements identified at the Region 7 event can be applied on a
                  wider scale
               	 What barriers existed in the development and implementation of
                  improvements identified from event results and what lessons can be
                  learned from the event

Background
            Under the authority of the Clean Water Act (CWA) of 1972, the NPDES program
            controls water pollution by regulating point sources that discharge pollutants into
            U.S. waters. Point sources are discrete conveyances such as pipes or man-made
            ditches. Individual and general permits set technology-based and water-quality­
            based effluent limits to maintain environmental standards that ensure safe water.
            Facilities must obtain permits if their discharges go directly to surface waters.
            Most states are authorized to administer the program.

            EPA, states, and stakeholders are committed to improving the way in which EPA
            protects the environment and public health. In March 2010, the EPA
            Administrator and the president of the Environmental Council of the States
            (ECOS) signed a memorandum of understanding (MOU). The MOU states that
            EPA and ECOS believe that they can better protect public health and the
            environment through the use of business process improvement (BPI) techniques
            such as Kaizen, value stream mapping, and other lean methods. The MOU lists
            BPI activities such as Kaizen events as methods to achieve process efficiencies
            necessary to cope with tight federal and state budgets.




11-P-0315                                                                                      1
            Lean is a method that can enable work to be done more effectively and efficiently
            by identifying and eliminating waste in processes. Numerous government
            agencies, including EPA, are using lean to improve the quality, transparency, and
            speed of government. Kaizen, or rapid process improvement, often is considered
            to be the building block of all lean production methods. Kaizen focuses on
            eliminating waste, improving productivity, and achieving sustained, continual
            improvement in targeted activities and processes of an organization.

            EPA’s Office of Policy (OP) has a list of contractors who facilitate Kaizen events
            and are available as a resource to EPA offices wishing to conduct such events. In
            addition, EPA’s Lean in Government Starter Kit and Working Smart for
            Environmental Protection: Improving State Agency Processes with Lean and Six
            Sigma (hereafter referred to as “the primer”) are posted on the EPA website to
            assist EPA and its partners in planning, designing, and implementing Kaizen
            events. The lean starter kit was designed to assist interested government agencies in
            planning and implementing successful lean improvement events. The primer shares
            the implementation experiences and results of five states that used lean and similar
            BPI methods to improve the effectiveness and efficiency of agency processes. The
            EPA lean government website (http://www.epa.gov/lean/leangovernment) has other
            information and resources on lean government as well.

            In August 2008, Region 7 and its states, with participation from EPA headquarters,
            conducted a Kaizen event to improve the effectiveness and efficiency of the
            NPDES program. The purpose of the event was to review the process for granting
            NPDES permits and redesign it to gain improvements and efficiencies. An
            additional reason that EPA conducted the Kaizen event was the recognition, both in
            EPA headquarters and Region 7, that improved communications were needed with
            respect to permits, inspections, and performance reviews. The states in Region 7
            requested that EPA participate in this event; all states were involved and fully
            committed to the process.

            The participants included the EPA Office of Water (OW), Office of Enforcement
            and Compliance Assurance (OECA), EPA Region 7, and the four Region 7 states
            (Iowa, Kansas, Missouri, and Nebraska). Region 7 reported the results in a case
            study that OP posted on its website. The case study showed that the event resulted
            in redesigned processes that clarified how to better address critical technical
            issues, plan and conduct inspections, issue permits, and improve collaboration
            among EPA headquarters and regions and the states. The anticipated
            improvements reported in the case study were:

                  82 percent decrease in processing time to resolve technical issues that
                   delay permits (from 5.5 months to 1 month)
                  67 percent decrease in the number of steps for EPA to review a state
                   wastewater program (from 39 steps to 13 steps)
                  68–75 percent decrease in processing time for EPA to review a state
                   wastewater program (from 4–19 months to 1–6 months)


11-P-0315                                                                                     2
               	 Increased collaboration between EPA and states to improve planning and
                  quickly address problems

            While we found no evidence to verify these claims, we did note efficiencies in
            Region 7’s program since the Kaizen event.

Noteworthy Achievements
            Region 7 has actively pursued efficiencies with its states by conducting numerous
            Kaizen events. EPA and states, through national program manager (NPM)
            guidance and the EPA-ECOS MOU, are advocating the importance of more
            efficiently protecting the environment and public health through lean process
            improvement approaches such as Kaizen.

Scope and Methodology
            We conducted this performance audit in accordance with generally accepted
            government auditing standards. Those standards require that we plan and perform
            the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
            for our findings and conclusions based on our review objectives. We believe that
            the evidence obtained provides a reasonable basis for our findings and
            conclusions based on our audit objectives.

            We conducted the audit from March 2010 to March 2011. We obtained an
            understanding of the NPDES program through review of the laws, regulations,
            guidance, and other documents. We reviewed the CWA, Code of Federal
            Regulations, and EPA’s October 2009 CWA Action Plan to understand guidance
            and directives governing the NPDES program. We analyzed EPA guidance to
            obtain an understanding of BPI methods. We reviewed EPA’s Lean in
            Government Starter Kit and Working Smart for Environmental Protection:
            Improving State Agency Processes with Lean and Six Sigma to understand Kaizen
            and other techniques used to increase efficiency in business operations. We
            reviewed the fiscal years (FYs) 2008 and 2009 Integrity Act Annual Assurance
            Letters for EPA’s Office of the Administrator, OW, and Region 7 to determine
            whether they identified any weaknesses related to the NPDES program. The
            letters did not identify any such weaknesses.

            We visited EPA’s OW, OECA, OP, and Office of Congressional and
            Intergovernmental Relations; EPA Region 7 in Kansas City, Kansas; and ECOS
            in Washington, DC. We interviewed managers and/or permit writers in EPA and
            the states to gain an understanding of the NPDES program and the Region 7
            Kaizen event conducted in August 2008. We interviewed managers in EPA
            Regions 1, 4, 6, and 10, and in Iowa, Kansas, Missouri, and Nebraska, to
            determine implementation status and lessons learned from the Kaizen event. We
            reviewed documentation from the Kaizen event, and from surveys, presentations,
            and action items, to determine event results.


11-P-0315                                                                                    3
                                         Chapter 2

                  Region 7 Kaizen Event Identified 

               Process Improvements That Should Be 

                   Transferred to Other Regions 

               Although Kaizen event participants continued to follow up on the commitments
               and action items identified at the event, no single authority was responsible for
               tracking outcomes of the process improvements. Also, EPA did not have a process
               to develop and track quantifiable results and outcomes from the event. The
               Region 7 August 2008 Kaizen event identified three process improvements and
               one related implementation action for the NPDES program that can be potentially
               implemented in other regions:1

                       Resolution of technical issues and communication
                       Permitting and enforcement oversight reviews of the states
                       Annual strategic planning
                       Data collection and reporting

               Strategies involving both EPA and states, such as the EPA-ECOS MOU,
               recommend Kaizen events as one of the best methods to achieve program
               efficiencies and process improvements. However, the director of OW’s Office of
               Wastewater Management, Water Permits Division, stated that benefits achieved
               from the Region 7 Kaizen event have not been similarly achieved elsewhere. If the
               lessons learned at this event could be implemented nationwide, the improved
               permitting process could result in better communication; time and cost savings in
               the states and EPA; and improved processes for inspections, reviews, and data
               reporting.

EPA and States Emphasizing Process Improvement

                For the past few years, EPA and state environmental agencies have used
                approaches such as Kaizen to improve government processes that will contribute
                to environmental progress. Recent EPA guidance includes the following:

                    	 The EPA Administrator’s January 2010 memorandum, “Our Top
                       Priorities,” listed “protecting America’s waters” as one of seven areas for
                       focus during the year and in the years ahead. The memorandum stated that
                       achieving this and other goals would call for a focus on innovation and
                       efficiency. As an example, the memorandum stated that the Agency will
                       focus on improving EPA’s internal operations, from performance

1
 In May 2011, EPA provided the OIG the CWA Action Plan that covers wider implementation of process
improvements. The OIG did not verify the actions in the plan.


11-P-0315                                                                                            4
                   measures to Agency processes, and that success will depend on supporting
                   innovation and creativity.

               	 The purpose of the March 2010 MOU between EPA and ECOS was to
                  sustain organizational commitment by the states and EPA to apply BPI
                  techniques and thinking to areas of federal-state interaction in
                  implementing the nation’s environmental laws and regulations, to ensure
                  better and more cost-effective use of EPA and state resources.

               	 The April 2010 EPA FY 2011 NPM guidance for the National
                  Environmental Performance Partnership System (NEPPS) stated that the
                  Agency needed to identify collaborations to improve state-EPA business
                  processes and promote continuous improvement. EPA regions were asked
                  to review the areas of federal-state interaction and use appropriate BPI
                  techniques to identify collaborations to improve efficiency and eliminate
                  waste. Appropriate BPI techniques were to include applying successful
                  state-regional lean exercises, as appropriate.

Region 7 Permitting and Oversight Review Improvements Not Applied
Nationally
            The Region 7 Kaizen event resulted in NPDES process improvements in the areas
            of technical permit issue resolution and communication, and permitting and
            enforcement oversight reviews of the states. Although the Region 7 Kaizen event
            was not intended to be a national model at the time it was conducted, the process
            improvements identified at the event are planned to be implemented in other
            regions (see footnote 1). Implementing these process improvements could reduce
            the permits backlog and streamline the overall process. By not implementing
            these new processes beyond Region 7, other regions miss out on improvement
            opportunities.

            Resolution of Permit Technical Issues and Communication

            By developing a new process designed to end longstanding impasses on technical
            issues in the NPDES permitting program, the Kaizen event assisted Region 7 in
            resolving backlogged permits in its states, as illustrated in figure 1. The new
            process requires that if Region 7 files an objection to a permit on public notice,
            the respective state and Region 7 will resolve the issue within 30 days. If the issue
            cannot be resolved in that timeframe, it must be elevated to EPA headquarters for
            resolution.




11-P-0315                                                                                       5
            Figure 1: New process map for resolution of technical issues




            Source: Region 7 and four states’ NPDES Kaizen Event Case Study.

            Improved EPA-state communication and coordination has been one of the major
            improvements resulting from the event. For example, the states and Region 7
            held productive workshops to discuss the issues of wet weather and lagoons.
            These workshops led to a reduction in permit backlog and, overall, a more
            cooperative approach to implementing the program, understanding the issues,
            and addressing issues that impede program implementation.

            Region 7 staff stated that issues with NPDES permits should be resolved during
            the permit drafting process (steps 4–10 in figure 2, below) rather than waiting
            until the public notice phase (step 11 in figure 2). As shown in figure 2, Region 7
            and the states now follow a revised process in which EPA coordinates and
            communicates with the states during the permit drafting process, instead of
            reviewing the permit after it had been placed on public notice. Unresolved issues
            are now being elevated to the headquarters level sooner.




11-P-0315                                                                                         6
            Figure 2: Steps in permitting process
                                      Permitting steps                                 Region review
              1. Receive application from permittee.
              2. Review application for completeness and accuracy.
              3. Request additional information as necessary.
              4. Develop effluent limits.
              5. Develop water-quality-based effluent limits using application
                 data and other sources.
              6. Compare water quality-based effluent limits with                    EPA and states
                 technology-based effluent limits and choose the more               now work together
                 stringent of the two as the effluent limits for the permit.        during these steps to
              7. Develop monitoring requirements for each pollutant.                resolve issues
              8. Develop special conditions.
              9. Develop standard conditions.
             10. Consider variances and other applicable regulations.
             11. Prepare the fact sheet summarizing the principal facts and          Issues previously
                 the significant factual, legal, methodological, and policy         addressed during
                 questions considered in preparing the draft permit.                this step
             12. Complete the review and issuance process.
             13. Issue the final permit.
             14. Ensure permit requirements are implemented.
            Source: Water Permitting 101 (based predominately on 40 Code of Federal Regulations §124).


            Despite the need to increase process efficiency Agency-wide, EPA has not
            implemented the Kaizen event results on a broader scale. The Lean Starter Kit—
            How to Implement Successful Lean Events at Environmental Agencies states that
            the best way to sustain and expand lean activity is to achieve results and share
            them throughout the Agency. After Region 7 presented the results of the event to
            regional branch chiefs, OW offered to conduct similar events in other regions.
            None were interested because they did not see quantifiable results, or because
            their processes already incorporated some or all of the concepts identified in
            Region 7.

            By using the new resolution of technical issues process, Region 7 and two of its
            states were able to resolve some backlogged permits. At the time of our field
            work, Missouri was issuing 54 wet weather permits, some of which had been
            backlogged for several years, and Nebraska had issued permits to 3 water
            treatment plants that had been backlogged for over 10 years. Other states with
            permitting authority could benefit from regional review of permits earlier in the
            process. Earlier regional review could result in state personnel spending less time
            on rewrites because problems are resolved as the draft permit is developed.

            Oversight Reviews of the States

            As shown in figure 3, during the Kaizen event, Region 7 identified combining
            regional permit and enforcement oversight reviews of its states as a process
            improvement. The combined reviews eliminated 1 week of time that states




11-P-0315                                                                                                7
                devoted to the EPA reviews. Region 7 is also coordinating its state permit and
                enforcement reviews with EPA headquarters to reduce overlap and duplication.2

                 Figure 3: New process map for oversight reviews




                 Source: Region 7 and four states’ NPDES Kaizen Event Case Study.


                The CWA requires that EPA oversee authorized state programs to ensure
                adequate and consistent program operation and performance. EPA uses the State
                Review Framework (SRF) to review state programs, policies, files, and data.
                EPA’s ongoing oversight activities are designed to evaluate both the ongoing
                state program and operations, and overall program planning and performance.
                The oversight of program administration focuses on individual permits and
                compliance activities. These activities include receiving and reviewing draft and
                proposed state permits, evaluating reports addressing compliance and
                enforcement activities, and participating in inspections.

                 Region 7 performs permit and enforcement oversight reviews of one of its states
                 each year, so each Region 7 state is reviewed once every 4 years. The
                 headquarters Permit Quality Review (PQR) is a combination of file reviews
                 done by headquarters and during state site visits. Region 7 staff stated that
                 headquarters normally performs reviews in two EPA regions each year and site
                 visits are conducted in two states from each of the two regions.

2
 In May 2011, EPA provided the OIG the CWA Action Plan that covers national requirements for Permit Quality
Review and State Review Framework reviews. The OIG did not verify the actions in the plan.


11-P-0315                                                                                                     8
                 Since the Kaizen event, Region 7 had conducted combined permit and enforcement
                 oversight reviews in Nebraska and Iowa. By performing enforcement and permitting
                 reviews of a state concurrently, EPA saved Nebraska and Iowa a minimum of
                 1 week of employees’ time in supporting the reviews. In Nebraska, it saved six
                 employees 1 week of time because they were involved in both permitting and
                 enforcement reviews. Instead of performing two separate reviews that took 1 week
                 each, or a total of 2 weeks, both reviews were combined and done in 1 week.

                 Region 7 is planning coordinated permit and enforcement reviews in Missouri in
                 2011 using the permit program’s PQR process/checklist and the enforcement
                 program’s SRF. The PQR process is an on-site evaluation of permit files and
                 program operations. EPA and the states use the SRF to assess EPA and state
                 performance in enforcing water permits and as oversight of state and EPA
                 enforcement. Other EPA regions that perform dual or triple reviews could benefit
                 from combining the review processes.

                 The OECA Office of Compliance director stated that during the event,
                 participants realized that the states were being reviewed three different times:

                         OW’s Office of Wastewater Management conducted the PQR.
                         Region 7 conducted the SRF for the enforcement program.
                         Region 7 conducted its own reviews.

                 To increase efficiency, Region 7 conducted permitting reviews of states in
                 conjunction with the enforcement review and utilized tools developed by OW for
                 use in headquarters’ periodic PQRs. In 2008, headquarters provided the regions
                 with a checklist to be used in performing the PQR reviews. Region 7 used that
                 checklist in the reviews of two of its states. The SRF process continued as it was,
                 but was done concurrently with the PQR reviews.

                 Per its CWA action plan and FY 2011 NPM guidance, EPA plans to apply some of
                 the process improvements on a national scale. On June 22, 2010, OW and OECA
                 issued Interim Guidance on Strengthening EPA and State Performance and
                 Oversight to start incorporating some of these improvements in the annual planning
                 process. The OECA Office of Compliance director stated that the office anticipates
                 that the CWA action plan will integrate the PQR and the SRF reviews in FY 2011.3

Region 7 Strategic Planning and Data Reporting Improvements
Not Fully Implemented by Region 7 and EPA Headquarters
                 Participants in the Region 7 Kaizen event identified process improvements in the
                 areas of annual strategic planning and data reporting for the NPDES program.
                 Even though these process improvements had potential to improve program

3
 Agency Comment 4 (appendix A) provided to the OIG in May 2011 stated, “The Director of OECA’s Office of
Compliance stated that the CWA Action Plan has committed EPA to initiate a process to integrate the PQR and the
SRF reviews in FY 2011.” The OIG did not verify the actions taken related to this commitment.


11-P-0315                                                                                                         9
            efficiencies, the OW, Office of Wastewater Management, Water Permits
            Division director explained that the improvements were neither fully
            implemented by Region 7 and EPA headquarters nor implemented on a
            nationwide scale. No single authority was responsible for ensuring that the
            improvements were implemented. Earlier planning and coordination of
            inspections could avoid duplicate inspections. Other regions could achieve
            similar benefits by implementing these new processes.

            Annual Strategic Planning

            The Region 7 Kaizen event mapped out improvements for the annual regional-
            state strategic planning process (figure 4). These improvements were designed to
            achieve broader coverage for inspections and reviews of facilities and permits for
            the NPDES program. The process called for early engagement and cooperation
            between Region 7 and its states to identify the list of permits and facilities to be
            inspected. Efficiencies can be gained through avoiding duplicate inspections and
            using saved resources to increase coverage and depth of inspections. Region 7
            and its states were to work together to provide EPA headquarters the goals and
            numbers for incorporation into the FY 2011 NPM guidance and the Annual
            Commitment System (ACS) requirements. After reviewing the draft NPM
            guidance, the states and Region 7 were to develop a list of priority permits and
            inspections, and their ACS commitments.

            Figure 4: New process map for annual strategic planning




            Source: Region 7 and four states’ NPDES Kaizen Event Case Study.




11-P-0315                                                                                     10
                OECA’s FY 2011 NPM guidance states that every region and state, working
                together, should conduct a CWA annual planning process that brings the
                different components of the regional and state NPDES programs (water quality
                standards and assessment, permitting, and enforcement) to the table together;
                identifies and discusses national, regional, and state priorities considering
                available resources at both the state and federal levels; and results in
                collaborative annual work plans.

                Initially, implementing the concept of early collaboration on a compliance
                monitoring strategy was not possible due to planning timing differences between
                EPA and the states. However, plans for implementation have started. At least one
                Region 7 state, Missouri, provided input to the FY 2011 annual strategic plan.

                Region 7 and its states could more efficiently identify permits and facilities to be
                inspected by avoiding duplicate reviews and using those saved resources to
                increase coverage and depth of reviews. This benefit of coordinated strategic
                planning would potentially be achievable in other regions/states.4

                Data Reporting

                The Region 7 Kaizen event identified 24 reports that states were required to
                provide EPA. In accordance with the EPA Burden Reduction Initiative, event
                participants identified four NPDES reports for elimination, one of which could
                be eliminated by combining it with another report. The four reports identified for
                elimination were the High Priority 10 Years Old and Older, Double Violations
                SSSR, Permits with Trades, and Action Items for SRF. However, a June 2009
                survey of event participants indicated that the number of required state reports
                submitted to EPA after the event had not changed.

                To address state concerns over escalating reporting requirements accompanied
                by decreases in federal funding, EPA and ECOS launched the Burden Reduction
                Initiative in October 2006. This initiative aims to reduce states’ low-value, high-
                burden reporting requirements to conserve both states’ and EPA’s resources
                while maintaining a commitment to protect human health and the environment.

                The Integrated Compliance Information System for the NPDES program
                (ICIS-NPDES) provides a single database enabling users to manage their
                programs by tracking permits, limits for pollutants, discharge monitoring data,
                and other program reports. ICIS-NPDES eases the reporting burden by
                expanding the options for electronic data reporting and improves data quality by
                ensuring that all information conforms to strict rules. In addition, dual reporting
                of some information is eliminated. EPA is engaged in transitioning states from
                the Permit Compliance System (PCS) to the more comprehensive ICIS-NPDES.


4
 Agency Comment 4 (appendix A) provided to the OIG in May 2011 stated, “Regions now share inspection lists
with states to avoid duplication and to work share.” The OIG did not verify the actions taken.


11-P-0315                                                                                                    11
                 EPA’s FY 2010 Enforcement and Compliance Reporting Instructions directed
                 states that report storm water inspections in PCS to also enter the data in ICIS­
                 NPDES. ICIS-NPDES is expected to reduce the permit reporting burden in the
                 states currently using PCS by saving time, labor, or effort in completing the
                 NPDES reporting process. As of June 2009, 31 states and territories were solely
                 using ICIS-NPDES. EPA plans to support the remaining 22 NPDES states’
                 moves from PCS to ICIS-NPDES over the next few years.5 EPA’s Water Permits
                 Division further advocated that states place copies of permits on the Internet as
                 another way to reduce the burden associated with data and to increase the
                 NPDES permit transparency.

                 Kaizen event participants did not appear to pursue report reduction as an event
                 outcome because they saw the primary benefit of the Kaizen event to be
                 “improved communication.”6 Even though Region 7 did not fully implement the
                 data reporting process improvement, we believe the benefit of streamlining
                 reporting though the Burden Reduction Initiative and fully implemented ICIS­
                 NPDES should be considered for other regions and states.

    Conclusion
                 EPA intends to implement process improvements identified at the Region 7
                 Kaizen event nationwide. These BPIs include a reduction in the burden on states,
                 an improved process for regions and headquarters on the resolution of technical
                 permit issues, and a clear template in the form of a checklist for headquarters’
                 PQR review and the enforcement program’s SRF review of the states. The OW,
                 Office of Wastewater Management, Water Permits Division director explained
                 that EPA has shared the results of the event with NPDES branch chiefs
                 nationwide and has incorporated the lessons learned from the Kaizen event in
                 NPM guidance and the CWA Action Plan. In an era of increased responsibility
                 and dwindling resources, EPA should utilize all available resources, such as
                 those from OP, in planning, promoting, and implementing these events and other
                 new innovative processes. EPA should ensure that efficiencies developed are
                 shared with and used by other EPA regions where applicable.




5
  Agency Comment 8 (appendix A) provided to the OIG in May 2011 included an update to status: “As of April
2011, ICIS-NPDES supports 34 states, all 10 EPA regions, all territories, the District of Columbia, and two tribes.
EPA will continue to work with the remaining 16 states on their migration to ICIS-NPDES over the next two years.”
The OIG did not verify the updated status.
6
  Agency Comments 6 and 7 (appendix A) provided to the OIG in May 2011 provided reasons why Kaizen event
participants did not pursue report reduction as an event outcome. First, elimination of many of the 24 reports would
require additional resources. Second, using a single data system would require reaching consensus. Third, additional
report reduction requires rule changes. The Agency also stated that “reporting process improvements and
streamlining reporting though the Burden Reduction Initiative and providing a fully-implemented ICIS-NPDES is
being considered for other regions and state.” The OIG did not verify the reasons or consideration during the audit.


11-P-0315                                                                                                        12
Recommendations
            We recommend that the Deputy Administrator:

                   1. 	 Direct OW and OECA to identify Region 7 process improvements
                        that can be applied elsewhere, considering the cost and benefit of
                        implementation. These actions include:

                          a. 	 Earlier resolution of technical issues and communication.
                          b. 	 Combining permitting and enforcement oversight reviews of
                               the states.
                          c. 	 Implementing coordinated and integrated strategic planning
                               nationwide for the NPDES program, including consideration
                               of the new approaches under the CWA action plan.
                          d. 	 Fully implementing Burden Reduction Initiatives identified
                               during the event.

                   2. 	 Direct OP to work with OW and OECA to develop methods for
                        tracking and monitoring implementation of the processes identified in
                        recommendation 1.

                   3. 	 Direct the 10 regions to work with OW, OECA, and OP to implement
                        all the recommended process improvements.

Agency Comments and OIG Evaluation
            While EPA concurred with the recommendations, the Deputy Administrator
            disagreed with some of the report language and, where appropriate, we revised
            the report to address these concerns. The complete Agency response is in
            appendix A.

            The Deputy Administrator concurred with the recommendations and provided
            corrective action plans to address recommendations 1 through 3.

            In responding to recommendation 1.a., the Deputy Administrator committed to
            working with other EPA regions to identify and implement specific permit
            issuance changes from the Region 7 Kaizen event that can be used to speed the
            resolution of technical and communication issues. The Deputy Administrator
            proposed implementation of the process improvements for the remaining
            recommendations through the CWA Action Plan.

            Our review of the implementation plans for the CWA Action Plan concluded that
            EPA developed a complete and comprehensive plan to address recommendations
            1 through 3. The implementation plan advocates more efficient reporting of data;
            improved communication among states, EPA, and regions; and combining,
            coordinating, and integrating planning and oversight of the NPDES permitting


11-P-0315                                                                                    13
            and enforcement activities. The milestones and dates for proposing rules and
            training that will accomplish these efforts start in 2011 and go through 2012.

            The implementation plan addresses training needs for EPA and states. In 2011,
            EPA will integrate policies on prioritizing EPA and state permitting and
            enforcement actions. Beginning in 2011, EPA will develop joint annual NPDES
            work plans, as well as streamline NPDES enforcement and permitting oversight
            activities that will be assisted through guidance and training in 2011. In 2012,
            integrated reviews will be piloted in selected states. In summary, the
            implementation plan for the CWA Action Plan is responsive to our first three
            recommendations.




11-P-0315                                                                                      14
                                   Chapter 3

             Barriers Encountered During the 

        Region 7 Kaizen Event and Lessons Learned 

            The Region 7 Kaizen event encountered barriers to success involving scope,
            performance measures, implementation, and accountability. While EPA and states
            collaborated to create guidance for Kaizen events, such as the September 2006
            Lean in Government Starter Kit and Working Smart for Environmental
            Protection: Improving State Agency Processes with Lean and Six Sigma, EPA did
            not, nor was it required to, use them to assure that barriers were overcome in the
            Region 7 event. The EPA Administrator’s “Seven Priorities for EPA’s Future,” as
            well as other recent EPA and state initiatives, discuss the need to improve
            operations or conduct more Kaizen events with the states to more efficiently
            protect the environment and public health. EPA can improve the potential benefits
            achieved in future process improvement efforts by using lessons learned from the
            Region 7 Kaizen event.

Business Process Improvements Should Be Sought Via Well-Planned
Lean Events
            The 2011 NEPPS guidance, the March 2010 MOU between EPA and ECOS, and
            the EPA Administrator’s January 2010 memorandum, “Our Top Priorities,”
            emphasized that EPA should be more efficient. For example:

               	 The 2011 NEPPS goal 1, objective 3, states, “Identify collaborations to
                  improve state-EPA business processes and promote continuous
                  improvement (for example, by applying LEAN, Kaizen, Value Stream
                  Mapping and Six Sigma techniques).”

               	 The EPA-ECOS MOU states, “ECOS and EPA believe we can better
                  achieve the goal of protecting public health and the environment through
                  the use of administrative/business process improvement techniques such
                  as Kaizen, Six Sigma, Value Steam Mapping, and similar projects.”

               	 The Administrator’s memo states, “We will also focus on improving
                  EPA’s internal operations, from performance measures to agency
                  processes.”

            EPA had multiple resources to assist in achieving BPIs at the Region 7 Kaizen
            event. The EPA lean starter kit and primer addressed the importance of scope,
            performance measures, implementation, and accountability to successful lean
            events. As shown in figure 5, the lean starter kit identified “unclear scope” (i.e.,



11-P-0315                                                                                          15
            having a scope too large) as a common detriment to lean event success. Metrics
            should be quantified before, during, and after lean events, according to the lean
            starter kit. The primer explained that metrics are important because they focus
            attention on sustaining process improvement over time and ensure that what gets
            measured gets managed. The lean starter kit outlined the importance of selecting
            one person to serve as an overall implementation manager to track followup
            efforts. All of these characteristics are crucial to successful BPI events.

            Figure 5: Characteristics of less successful lean events
              Unclear Scope: Event scale or scope was too large—it was too much to address in a 4- to
               5-day event.
              Lack of Visible Management Commitment: If managers do not commit to and actively
               support improvements and process changes, it is easy to backslide to business as usual.
              Poor Event Facilitation or Support: Failure to adequately prepare for a lean event limits
               what can be accomplished; similarly, lack of a skilled facilitator can inhibit progress during
               a lean event.
              Inadequate Followup: Insufficient attention, resources, and accountability can prevent the
               new process from being successfully implemented in a reasonable timeframe.
              Strategic Misalignment: When multiple autonomous departments or agencies are involved
               in an event, conflicts can emerge due to differences in mission and strategic direction.
               This misalignment can undermine management support for followup and implementation
               activities.
              Unrealistic Expectations: Expectations for what the event could achieve were not realistic
               given the process type, complexity, or other factors.
            Source: EPA, Lean in Government Starter Kit, Version 2.0, May 2009. Earlier versions of the starter
            kit, published before the Region 7 NPDES Kaizen event, cited similar characteristics.


Barriers to the Region 7 NPDES Kaizen Event
            We interviewed Region 7, OW, and OECA management to determine what
            barriers existed to the event and whether lessons could be learned from the event
            as future events are considered. The interviewees consistently identified scope,
            performance measures, implementation, and accountability as barriers that limited
            the success of the event.

            Scope

            OECA, OW, and Region 7 management, as well as states, confirmed that the
            scope of the event in Region 7 was too big. The OECA Office of Compliance
            director stated that the event should have been more selective in scope, the
            personnel involved should have had upfront training in lean, and the goals and
            outcomes to be achieved should have been properly determined at the beginning
            of the event so that results would have been more beneficial.

            An OP representative explained that for a large, complex process such as NPDES
            permitting and enforcement, a single event may not be sufficient to solve all
            problems. Many lean leader organizations first conduct a value stream map that
            provides a clear picture of the current process as well as a “future state” map that



11-P-0315                                                                                                   16
            defines the desired process. Followup Kaizen events can then be used to make
            improvements in targeted areas.

            We concur with OECA and Region 7 that the scope of the Region 7 Kaizen event
            was too large. However, merely narrowing the scope of the event would not
            necessarily have produced an optimal outcome—mapping the whole process and
            considering the ideal state before mapping out specific improvements can be
            beneficial.

            Performance Measures

            “Demonstrating results” was another obstacle identified as a barrier to the event’s
            success. Also, EPA did not have a process to develop and track quantifiable
            results and outcomes from the event. The OW, Office of Wastewater
            Management, Water Permits Division director stated that measurable benefits
            were difficult to quantify due to the broad scope of the event. Without measurable
            results, it was difficult to quantify and apply the positive outcomes from the event
            to other EPA regions. The states and EPA identified improved communication, a
            nonmeasurable effect, as the main benefit of the event. Specifically, “improved
            communication” means more open relationships between EPA headquarters,
            regions, and states to raise issues as early as possible and resolve them timely.
            Specific achievements and positive aspects of improved communication resulting
            from the Region 7 Kaizen event include:

                  Nebraska coordinated followup calls, meetings and action items from
                   these events and results from them.
                  Managers in multiple EPA offices made commitments to improve
                   communication.
                  OW and OECA issued the June 2010 Interim Guidance to Strengthen
                   Performance in the NPDES Program.

            The case study of the Region 7 Kaizen event that OP posted on its website
            identified anticipated improvements resulting from the event:

                  82 percent decrease in processing time to resolve technical issues that
                   delay permits (from 5.5 months to 1 month)
                  67 percent decrease in the number of steps for EPA to review a state
                   wastewater program (from 39 steps to 13 steps)
                  68–75 percent decrease in processing time for EPA to review a state
                   wastewater program (from 4–19 months to 1–6 months)
                  Increased collaboration between EPA and states to improve planning and
                   quickly address problems

            However, Region 7 management could not provide documentation of the basis on
            which these anticipated process improvements were projected, and could not
            document how these improvements were quantified in the event case study. EPA


11-P-0315                                                                                     17
                 personnel informed the OIG that the event facilitator calculated the case study
                 results by comparing the old and new processes to develop percentage savings in
                 measures such as time and labor. Region 7 described the percentages as “wishes
                 for what might happen.” Headquarters OW officials also explained that the
                 savings identified by the facilitator may not be valid because steps in the new
                 flowcharted process actually involved multiple steps that were depicted as one.

                 Implementation/Accountability

                 The EPA lean starter kit states that one of the most essential steps to ensure
                 effective followup is to identify an “implementation manager.” The
                 implementation manager is responsible for ensuring that a clear and effective
                 event followup process is established and conducted. Specific responsibilities of
                 the implementation manager include:

                         Schedule and run event followup meetings. 

                         Lead efforts to identify and remove obstacles to effective followup. 

                         Hold the team accountable for follow-through on actions. 

                         Ensure that progress is periodically evaluated and corrective actions are 

                          implemented.
                         Ensure that postevent communication plans are executed.

                 Although EPA and the Region 7 states agreed that an individual from Nebraska
                 should track action items from the event and subsequent meetings, and establish
                 various points of contact for action items that came from the event and subsequent
                 meetings, they did not appoint an implementation manager to be accountable for
                 the outcomes of the event in its entirety. No manager had complete authority over
                 all the parties needed to make the identified changes.7 To oversee implementation,
                 EPA should have established an implementation manager within the Agency, not
                 from a state.

National Policy Needed for Business Process Improvement
                 EPA does not have a national policy for conducting BPI events such as Kaizen,
                 six sigma, and value stream mapping. Multiple resources are available to the
                 Agency and its state partners to guide in planning, designing, and implementing
                 BPI events. However, there is no national policy that integrates these resources or
                 establishes requirements to use them.

                 The OW Office of Wastewater Management deputy director explained that EPA
                 issued a CWA Action Plan in October 2009 that would implement, on a national
                 level, some of the results of the Region 7 Kaizen event. However, the action plan
                 makes no mention of the event. In June 2010, OW and OECA jointly issued
                 Interim Guidance to Strengthen Performance in the NPDES Program to Regional
7
 Agency Comment 1, 2 of 3 (appendix A) provided to the OIG in May 2011 stated, “The EPA and state managers
made (and kept) commitments for follow-up actions.” The OIG did not verify that statement as part of the audit.


11-P-0315                                                                                                     18
                 Administrators as the initial steps to be implemented under the CWA Action Plan.
                 While this interim guidance focused on annual planning and joint work plans that
                 were similar to some of the new processes that emerged from the Region 7 Kaizen
                 event, other process improvements from the event were not included in the
                 guidance.8 In addition, the absence of a national policy for all EPA offices to use
                 in planning, designing, and implementing BPI events such as Kaizen is an internal
                 control deficiency that may pose a barrier to the success of future events.

Conclusion
                 EPA may waste funds if the Agency does not apply lessons learned from the
                 Region 7 Kaizen event. The emphasis within EPA and the states to conduct more
                 events like the Region 7 Kaizen event is likely to result in increased expenditures
                 for similar events. Understanding the obstacles encountered during and after the
                 event will increase the likelihood that future events held by EPA and its partners
                 will be successful.

                 The importance of protecting the environment and public health in conjunction
                 with tight resources at the federal and state levels necessitates that EPA and the
                 states use their resources efficiently. Congress, state legislatures, the regulated
                 community, and the public are asking agencies to produce results with greater
                 efficiency. In 2010, the EPA Administrator directed the Agency to be innovative
                 and creative in improving EPA’s operations, and ECOS reported that 32 states
                 listed “business process improvements” as the highest-ranked strategy among
                 states for coping with budget reductions. The EPA-ECOS MOU on BPI heightens
                 the importance and need for conducting well-planned, -designed, and
                 -implemented BPI events. Therefore, it is crucial that EPA provide a framework
                 and direction to aid in successful implementation.

Recommendations
                 We recommend that the Deputy Administrator:

                         4. 	 Direct OP to develop a national policy on how to plan, design, and
                              implement business process improvement events that includes:

                                  a.	 Integration of the existing best practices identified in EPA
                                      resources, such as kits on lean, Kaizen, and value stream
                                      mapping, that will address methods for overcoming common
                                      barriers to business process improvement events.

                                  b.	 Requirements on how to address barriers concerning scope,
                                      performance measures, accountability, and implementation.
8
  Agency Miscellaneous Comments and Suggested Edits, #8 (appendix A) provided to the OIG in May 2011 stated
that the Agency covered other process improvements from the event in other documents and processes. The OIG did
not verify that statement as part of the audit.


11-P-0315                                                                                                   19
                   5. 	 Establish an overall office or steering committee for advocating and
                        overseeing business process improvement events that involve multiple
                        Assistant Administrators and regions.

                   6. 	 Direct OP to work with other EPA offices to coordinate and carry out
                        business process improvement events until OP finalizes the policy
                        developed pursuant to recommendation 4.

Agency Comments and OIG Evaluation
            The Agency was less than fully responsive to recommendations 4 through 6. It is
            the OIG position that (1) OP should develop a national policy on how to plan,
            design, and implement BPI; and (2) the Agency should establish an overall office
            or steering committee for advocating and overseeing BPI. A national policy and
            responsible office are essential for achieving the full benefits of experiences and
            best practices in future events by avoiding scope problems and other barriers to
            success. Additional discussion with the Agency showed that the Agency intends
            to be more responsive to the intent of these recommendations in its action plan
            that the Agency is to provide within 90 days after OIG issues the final report.




11-P-0315                                                                                    20
                                    Status of Recommendations and
                                      Potential Monetary Benefits
                                                                                                                             POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                           BENEFIT (in $000s)

                                                                                                                 Planned
Rec.        Page                                                                                                Completion   Claimed     Agreed-To
No.          No.                             Subject                           Status1     Action Official         Date      Amount       Amount

    1         13     Direct OW and OECA to identify Region 7 process             O       Deputy Administrator
                     improvements that can be applied elsewhere,
                     considering the cost and benefit of implementation.
                     These actions include:
                           a.   Earlier resolution of technical issues and
                                communication.
                           b.   Combining permitting and enforcement
                                oversight reviews of the states.
                           c.   Implementing coordinated and integrated
                                strategic planning nationwide for the
                                NPDES program, including consideration of
                                the new approaches under the CWA action
                                plan.
                           d.   Fully implementing Burden Reduction
                                Initiatives identified during the event.
    2         13    Direct OP to work with OW and OECA to develop                O       Deputy Administrator
                    methods for tracking and monitoring implementation of
                    the processes identified in recommendation 1.

    3         13    Direct the 10 regions to work with OW, OECA, and OP to       O       Deputy Administrator
                    implement all the recommended process improvements.

    4         19    Direct OP to develop a national policy on how to plan,       U       Deputy Administrator
                    design, and implement business process improvement
                    events that includes:
                           a.   Integration of the existing best practices
                                identified in EPA resources, such as kits on
                                lean, Kaizen, and value stream mapping, that
                                will address methods for overcoming
                                common barriers to business process
                                improvement events.
                           b.   Requirements on how to address barriers
                                concerning scope, performance measures,
                                accountability, and implementation.
    5         20    Establish an overall office or steering committee for        U       Deputy Administrator
                    advocating and overseeing business process
                    improvement events that involve multiple Assistant
                    Administrators and regions.

    6         20    Direct OP to work with other EPA offices to coordinate
                    and carry out business process improvement events until      U       Deputy Administrator
                    OP finalizes the policy developed pursuant to
                    recommendation 4.




1       O = recommendation is open with agreed-to corrective actions pending
        C = recommendation is closed with all agreed-to actions completed
        U = recommendation is undecided with resolution efforts in progress




11-P-0315                                                                                                                                      21
                                                                                             Appendix A

                   EPA Response and OIG Evaluation


                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                  WASHINGTON, D.C. 20460


                                                                                     DEPUTY ADMINISTRATOR
                                               MAY 5, 2011 

MEMORANDUM

SUBJECT:        U.S. Environmental Protection Agency's Comments on Office of Inspector General's
                Draft Audit Report “Agency-Wide Application of Region 7 Process Improvements for
                the NPDES Program Could Increase EPA Efficiency”

FROM:           Bob Perciasepe /Signed/

TO:             Melissa Heist
                Assistant Inspector General for Audit

Thank you for the opportunity to review the Office of Inspector General’s draft audit report titled
“Agency Wide Application of Region 7 Process Improvements for the NPDES Program Could Increase
EPA Efficiency,” Project No. OA-FY 10-00099, March 14, 2011. The U.S. Environmental Protection
Agency believes that the Region 7 Kaizen process for the National Pollutant Discharge Elimination
System was an important event. It focused the attention of the Office of Water and the Office of
Enforcement and Compliance Assurance on areas of overlap in NPDES program implementation among
EPA headquarters, regions and states. The event also highlighted ways in which the EPA could improve
NPDES program efficiencies for all of the key players. As a result, many of the concepts discussed
during the Region 7 Kaizen event have been incorporated into the Clean Water Act Action Plan. Much
has already been accomplished, and we believe that we are currently taking concrete steps to address
many of the report's recommendations through implementation of the CWA Action Plan.

The EPA supports the use of business-process-improvement techniques, including Lean and other
methods to improve the administrative processes used to carry out our mission of protecting human
health and the environment. Techniques such as Kaizen, Six Sigma and value stream mapping offer
potential means for gaining efficiencies, enhancing outcomes and improving relationships. The EPA is
still early in its experience and evolving our approach as we continue to learn how best to strategically
deploy these tools and other methods to realize potential improvement benefits.

Attached to this memorandum are the EPA’s detailed comments on the text of the audit report. This
memorandum summarizes the EPA’s responses to the six recommendations listed in the report. The
EPA largely agrees with the intent behind the recommendations in the report. The EPA proposes to
implement the first three recommendations largely through the CWA Action Plan process while the
latter recommendations will be coordinated by the Office of Policy.




11-P-0315                                                                                                   22
Recommendation 1: Direct OW and OECA to identify Region 7 process improvements that can be
applied elsewhere, considering the cost and benefit of implementation. These actions include:

        a. Earlier resolution of technical issues and communication.
        b. Combining permitting and enforcement oversight reviews of the states.
        c. Implementing coordinated and integrated strategic planning for the NPDES program.
        d. Fully implementing Burden Reduction Initiatives identified during the event.

Informed by the Region 7 NPDES Kaizen event, OW and OECA worked to identify process
improvements that can be applied agencywide, considering the cost and benefit of implementation.
Admittedly, ongoing communications and the resolution of technical issues are subject to the dynamics
of unique EPA-state relationships and can always be improved. Although a one-size-fits-all approach to
these communications would likely not solve specific issues within regions and states, we do believe it
is important for Region 7 to share its experiences and best practices with the other regions to ensure that
everyone benefits from the Kaizen event. OW will work with the regional NPDES staff to share the
successful methods Region 7 used to improve resolution of technical issues and communication and
follow progress of any regions that implement these techniques based on Region 7’s experience.

Sub-items 1.b. and 1.c. are already being accomplished under the CWA Action Plan. Currently, OW and
OECA are working to integrate permitting and enforcement oversight reviews of the states on a
nationwide level as part of the CWA Action Plan. In August 2010, the directors of the Office of
Wastewater Management and the Office of Compliance jointly issued a memorandum to the regional
water division directors and senior enforcement managers requesting participation in developing an
integrated program oversight framework, including integrating enforcement and permitting program
reviews. OW's Permit Quality Review effort is currently led by headquarters while OECA's State
Review Framework process is primarily implemented by the regions, and the two processes operate on
different schedules. Efforts to integrate the two review processes, including potential process revisions,
schedule alignment, materials development and training are in the planning stages. OW and OECA
currently plan to pilot an integrated review process during the second half of fiscal year 2012.

An annual planning process under the CWA Action Plan asks regions and states to develop joint NPDES
permitting and enforcement work plans to ensure the strategic use of limited NPDES resources. An
April 8, 2011, request to the regions to initiate joint planning for 2012 builds on a memorandum issued by
the assistant administrators for Water and Enforcement and Compliance Assurance on June 22, 2010,
titled “Interim Guidance to Strengthen Performance in the NPDES Program,” which implemented this
new practice. States and EPA regions are expected to work together to develop these joint work plans.

With respect to recommendation 1.d., the EPA believes that, under the auspices of the CWA Action
Plan, work is already under way to reduce state reporting burdens for the NPDES program, such as the
elimination of the annual noncompliance report in the soon-to-be-proposed NPDES Electronic
Reporting Rule. This rulemaking effort also is included in the CWA Action Plan. The EPA notes that
many of the other 24 “reports” referred to on page 11 of the audit report are not actually reports but are
voluntary state data-quality checks, such as for the Quarterly Non-Compliance Report and the State
Review Framework data-verification process.

In sum, the EPA proposes to implement the process improvements for areas 1.b-1.d through the new,
integrated NPDES state oversight process and the electronic reporting rule, elements of the CWA Action
Plan. For area l.a, OW proposes to work with EPA regions to identify specific changes from the Region
7 Kaizen that other regions can use to speed resolution of technical or communications issues that arise in
the context of permit issuance.



11-P-0315                                                                                                    23
OIG Evaluation of Agency Response to Recommendation 1: Although the Agency concurred with
OIG recommendation 1.a. and stated that it will work with other EPA regions to identify and implement
specific permit issuance changes from the Region 7 Kaizen event, there is no stated avenue or deadline
for this joint work. EPA must affirm clear deadlines and plans of implementation. The Agency proposes
implementation of the process improvements for areas 1.b.–1.d. through the new, integrated NPDES state
oversight process and the electronic reporting rule in the CWA Action Plan. To the extent that the new
state oversight process and the CWA Action Plan incorporate the OIG recommendation, the Agency
should pursue compliance through these avenues. Otherwise, the Agency should pursue specific methods
of combining permitting and enforcement, implementing strategic planning, and implementing Burden
Reduction Initiatives.

Recommendation 2: Direct OP to work with OW and OECA to develop methods for tracking and
monitoring implementation of the processes identified in recommendation 1.

OECA is tracking the process improvement being implemented through the CWA Action Plan and
proposes to use that tracking to implement recommendation 1. The EPA does not believe additional
methods for tracking and monitoring are necessary to ensure implementation of these activities.

OIG Evaluation of Agency Response to Recommendation 2: The Agency provided alternative
management action suggesting that tracking through the CWA Action Plan would be sufficient. The
Agency does not believe additional methods for tracking and monitoring are necessary to ensure
implementation of activities. The Agency’s proposed course of action is acceptable as long as there are
clearly defined milestones, deadlines, and points of review and evaluation available within the CWA
Action Plan and used as part of the water program.

Recommendation 3: Direct the 10 regions to work with OW, OECA and OP to implement all the
recommended process improvements.

The process improvements identified by OW and OECA for implementation are included in the CWA
Action Plan, which was requested and supported by Administrator Lisa P. Jackson and included regional
participation in the development of its implementation plan. The EPA proposes that regional
implementation of these process improvements occur through the CWA Action Plan.

OIG Evaluation of Agency Response to Recommendation 3: The Agency concurred with this
recommendation but stated that process improvements identified by OW and OECA for implementation
are included in the CWA Action Plan, and that regional implementation of these process improvements
would occur through the Action Plan. The Agency’s proposed course of action is acceptable, as the CWA
Action Plan appears to fulfill the requirements of the recommendation, providing there are clearly defined
milestones and deadlines.

Recommendation 4: Direct OP to develop a national policy on how to plan, design and implement
business-process-improvement events that include:

        a. Integration of the existing best practices identified in EPA resources, such as kits on Lean,
           Kaizen and value stream mapping that will address methods for overcoming common
           barriers to business-process-improvement events.
        b. Requirements on how to address barriers concerning scope, performance measures,
           accountability and implementation.




11-P-0315                                                                                                  24
OP brings a continuous improvement orientation to assisting EPA offices interested in using Lean
techniques to improve agency processes. Lessons learned from one event are often captured in new tools
aimed at enhancing the effectiveness of future events. For example, the challenges encountered in
implementing broadly scoped events have led to the development of a new “Scoping Guide” currently
circulating for comment. A national policy that would convert the guidance contained in the current
suite of tools into requirements for how to plan, design and implement business-process improvements
is not appropriate at this time because the agency is still gaining experience. Rather, OP will continue to
leverage the learning from each event, raise awareness of the potential benefits of business-process­
improvement techniques and available tools, and develop additional tools as we evolve our approach.
OP will consider the potential benefits of a tool that would integrate the best practices from across the
existing guidance documents.

Another opportunity for the agency to identify business process improvements includes the EPA’s
response to Executive Order 13563, a Preliminary Plan for Periodic Retrospective Reviews of Existing
Regulations. EO 13563 and the EPA's plan is an opportunity to take a fresh look at the agency’s
approach for providing improved environmental quality to the American people and an opportunity to
modernize our regulatory program. The initiatives and regulatory reviews described in the plan, one of
which is NPDES permit updates, are intended to help us identify business process improvements and
make our regulatory program more effective and less burdensome.

OIG Evaluation of Agency Response to Recommendation 4: The OIG agrees that OP facilitates
process improvement and looks for ways to enhance those efforts. However, the Agency’s response did
not address the recommendation that OP should develop a national policy on how to plan, design, and
implement BPI events. Localized implementation of events causes other EPA entities to miss out on
improvement opportunities. Without a national policy, EPA will continue to lose the benefits of
experiences and best practices, and future events will be prone to scope problems and other barriers to
success. Additional discussion with the Agency showed that the Agency intends to be more responsive to
the intent of recommendations 4 through 6 in its action plan that it is to provide within 90 days after OIG
issues the final report.

Recommendation 5: Establish an overall office or a steering committee for advocating and
overseeing business-process-improvement events that involve multiple assistant administrators and
regions.

Primary accountability for business-process-improvements must lie with those responsible for
administering the particular process to be improved, which, as the audit points out, can sometimes
involve multiple organizational units. The need for supplemental cross-agency support, coordination,
communication and accountability and the most appropriate form it should take will evolve over time as
the EPA gains experience. Deployment approaches used by other government agencies will be examined
to gain insight into different options.

OIG Evaluation of Agency Response to Recommendation 5: The OIG agrees that accountability lies
with those responsible for the process. However, the Agency’s response did not address establishing an
office or steering committee for advocating and overseeing BPI events. Failure to establish an office or
steering committee forgoes valuable lessons learned and is an internal control deficiency that may pose a
barrier to the success of future events. The Administration and Congress want federal agencies to become
more efficient, and EPA’s efforts on process improvement should be effectively coordinated to assure
optimum results. Additional discussion with the Agency showed that the Agency intends to be more
responsive to the intent of recommendations 4 through 6 in its action plan that it is to provide within 90
days after OIG issues the final report.



11-P-0315                                                                                                 25
Recommendation 6: Direct OP to work with other EPA offices to coordinate and carry out
business-process-improvement events until OP finalizes the policy developed pursuant to
recommendation 4.

OP will continue to coordinate with and assist other EPA offices and states as they plan, implement and
communicate business-process-improvement events through the provision of information, tools and
services, such as identifying qualified Lean contractors, training, etc. OP will also help coordinate
implementation of the business-process-improvement memorandum of understanding with the
Environmental Council of the States and respond to identified needs on an ongoing basis.

OIG Evaluation of Agency Response to Recommendation 6: The OIG agrees with OP continuing to
coordinate and assist with BPI events. However, the EPA response to recommendation 6 is less than fully
responsive, because the Agency did not address development of policy in its response to recommendation
4. Additional discussion with the Agency showed that the Agency intends to be more responsive to the
intent of recommendations 4 through 6 in its action plan that it is to provide within 90 days after OIG
issues the final report.

Should you have any questions or concerns about this response, please contact Nena Shaw at (202) 564-
5106 or shaw.nena@epa.gov.

Attachment

cc: Cynthia Giles
    Nancy Stoner
    Michael Goo
    Karl Brooks




11-P-0315                                                                                                 26
     EPA Comments on Draft OIG Audit Report: Agency-Wide Application of Region 7 Process
             Improvements for the NPDES Program Could Increase EPA Efficiency

     Comment 1: The report states that no one was responsible for tracking outcomes of the Kaizen event.
EPA disagrees that no one was responsible for tracking the follow-up to the LEAN event. Cindy
Miesbeck, the facilitator from Nebraska, was assigned responsibility for tracking progress and outcomes
of the Region 7 Kaizen event process, with Art Spratlin from Region 7 as the lead manager responsible
for ensuring follow-up. Each state, Region 7 and headquarters were all accountable for actions to
implement identified improvements. The EPA and the states held conference calls and regularly
scheduled meetings to discuss the issues and progress being made on the various assignments. This
process continued under the Kaizen for approximately 15 months. Region 7, headquarters and other EPA
regions did discuss the Region 7 Kaizen event and many of the proposed actions for consideration by
other regions. The following are two portions of the report that the EPA suggests removing or updating to
address this discrepancy:
     	 At a Glance page, What We Found: First sentence. “Although Kaizen event participants
        continued to follow up on the commitments and action items identified, no one was responsible
        for tracking outcomes of the Region 7 Kaizen event process improvements.
     	 Chapter 2, page 4: First two sentences. “Although Kaizen participants continued to follow up on
        the commitments and action items identified at the event, no one was responsible for tracking
        outcomes of the process improvements. Also, Region 7 and other EPA regions did not develop
        quantifiable results and outcomes from the event.”

OIG Response to Agency Comment 1, 1 of 3: We changed the report from “no one” to “no single
authority.” Three separate sources stated that no single authority was responsible for tracking.

    Additionally, the EPA suggests the following edits to more accurately reflect the tracking and follow-
up task responsibilities:
     Implementation/Accountability, page 16: Second paragraph. Suggest the following edits.
        “Although EPA assigned and the Region 7 states agreed that an individual from Nebraska
        should track to follow through on action items from the event and subsequent meetings, and
        establish various points of contact for action items that came from the event and subsequent
        meetings, it did not appoint an implementation manager to be accountable for the outcomes of the
        event in its entirety. No manager had complete authority over all the parties needed to make the
        identified changes. The EPA and state managers made (and kept) commitments for follow-up
        actions. State employees had no authority to hold the EPA accountable for implementation
        activities and EPA had no managerial authority over states. To oversee ...”

OIG Response to Agency Comment 1, 2 of 3: The OIG agrees with first suggested edits and changed
the report as suggested. The OIG added footnote 7 in the last paragraph of this section: “Agency
Comment 1, 2 of 3 (appendix A) provided to the OIG in EPA’s May 6, 2011, comments stated, ‘The EPA
and state managers made (and kept) commitments for follow-up actions.’ The OIG did not verify that
statement as part of the audit. ” Rather than making the change for this comment, the OIG removed the
sentence “State employees . . . activities,” as that sentence is redundant with the sentence that was added
at the Agency’s Comment 4.

    	 Performance Measures, page 15: First two bullets. Suggest the following edits. "Nebraska
       attempted to coordinated follow-up calls, meetings and action items from these events and results
       from them it. Managers in multiple EPA offices made committedments to assisting implement
       in that effort."




11-P-0315                                                                                               27
     Comment 2: The report states, “Also, Region 7 and other EPA regions did not develop quantifiable
results and outcomes from the event” (At a Glance page, What We Found: Second sentence). The focus
of the Kaizen event was on Region 7, not other EPA regions. The purpose of the event was to review the
current process that Region 7 and its states were using, and redesign it to gain improvements and
efficiencies. An additional reason the EPA conducted the Kaizen event was that there was already
recognition, both in EPA headquarters and in Region 7, that improvements in communication were
needed around permits, inspections and performance reviews. The states in Region 7 requested the EPA's
participation in this event; all states were involved and fully committed to the process. This should be
added to the introduction.

OIG Response to Agency Comment 1, 3 of 3, and Agency Comment 2: The OIG agrees and changed
the report as suggested.

    Comment 3: The report includes statements that results and/or benefits were not quantifiable. Region
7 did quantify some expected benefits. These benefits are identified in the report on page 2. Based on the
above evidence, the EPA disagrees with statements found in the following comments in the report and
requests that these be revised to reflect the fact that some expected benefits were quantified:
    	 Chapter 2, page 4: First two sentences. ”Although Kaizen participants continued to follow up on
        the commitments and action items identified at the event, no one was responsible for tracking
        outcomes of the process improvements. Also, Region 7 and other EPA regions did not develop
        quantifiable results and outcomes from the event.”
    	 At a Glance page, What We Found: Second sentence. Also, Region 7 and other EPA regions
        did not develop quantifiable results and outcomes from the event.”
    	 Performance Measures, page 15: First sentence. “Demonstrating results” was another obstacle
        identified as a barrier to the event’s success. The Director, Water Permits Division, Office of
        Wastewater Management stated that measurable benefits were not quantifiable due to the broad
        scope of the event.”

OIG Response to Agency Comment 3: During the audit, the OIG identified quantifiable results.
Therefore, the OIG changed the report for clarity. Chapter 2, page 4; and At a Glance, What We Found:
Also, EPA Region 7 did not have a process to develop and track quantifiable results and outcomes from
the event. Performance Measures, page 15: Also, EPA did not have a process to develop and track
quantifiable results and outcomes from the event. The OW, Office of Wastewater Management, Water
Permits Division director stated that measurable benefits were difficult to quantify not quantifiable due
to the broad scope of the event.

    Comment 4: Portions of the report discuss the potential for some process improvements identified in
the Region 7 Kaizen event to be implemented in other EPA regions. Under the Administrator-endorsed
Clean Water Act Action Plan effort, the EPA has already made process improvements to permitting and
enforcement annual strategic planning in other regions nationally and is working to integrate oversight
reviews of states. The EPA thinks this should be recognized in the report. Some details of these efforts are
described in the response memorandum. The following are some portions of the report that could be
updated to reflect EPA Headquarters efforts that were prompted by the Region 7 Kaizen event:
    	 At a Glance page. What We Found: Second paragraph. “The Region 7 August 2008 Kaizen
        event identified three process improvements - resolution of technical issues and communication,
        permitting and enforcement oversight reviews of states. and annual strategic planning - and one
        implementation action - data collection and reporting - for the NPDES program that can
        potentially be implemented in other regions.”




11-P-0315                                                                                                28
    	 At a Glance page, What We Found: Third paragraph. “Changes in the permitting process
       throughout the Agency could result in better communication; time and cost savings in the states;
       and avoidance of duplicate inspections. reviews, and data reporting.
    	 Purpose, page 1: “We conducted an audit of the event to determine: What improvements
       identified at the Region 7 event can be applied on a wider scale.”
    	 Region 7 Strategic Planning and Data Collection Improvements Not Fully Implemented by
       Region 7 and EPA Headquarters, page 9: Second, third and fourth sentences. “Even though
       these process improvements had potential to improve program efficiencies, the headquarters
       Director, Water Permits Division, Office of Wastewater Management explained that they were
       neither fully implemented by Region 7 and EPA headquarters nor implemented on a nationwide
       scale. No one was responsible for ensuring that the improvements were implemented. Earlier
       planning and coordination of inspections could avoid duplicate inspections. Other regions could
       achieve similar benefits by implementing these new processes.”
    	 Chapter 2, page 4: Second paragraph, last sentence. “If the lessons learned at this event could be
       implemented nationwide, the improved permitting process could result in better communication;
       time and cost savings in the states and the EPA; and improved processes for inspections, reviews
       and data reporting.”

    Additionally, the EPA suggests the following edits to more accurately reflect the EPA's efforts:
    	 Region 7 Permitting and Oversight Review Improvements Not Applied Nationally, page 5:
       Second sentence. Suggest the following edit. “Although the Region 7 Kaizen event was not
       intended to be a national model at the time it was conducted, the process improvements identified
       at the event have the potential to be are being implemented in other regions.
    	 Oversight reviews of the States, page 9: First full paragraph. Suggest the following edit. At the
       end of the paragraph, add “The approach of combining the PQR and SRF reviews is being
       required nationally in the CWA Action Plan.”
    	 Oversight reviews of the States, page 9: Last paragraph. Suggest the following edit. “On June
       22, 2010, OW and OECA issued Interim Guidance on Strengthening EPA and State Performance
       and Oversight to start incorporating some of these improvements in the annual planning
       process. The Director of OECA's Office of Compliance stated that the office anticipates that the
       CWA Action Plan will has committed EPA to initiate a process to integrate the PQR and the
       SRF reviews in FY 2011.”
    	 Annual Strategic Planning, page 11: Second paragraph. “Region 7 and its states could more
       efficiently identify permits and facilities to be inspected by avoiding duplicate reviews and using
       those saved resources to increase coverage and depth of reviews. This benefit of coordinated
       strategic planning would potentially be achievable in other regions/states.” Regions now share
       inspection lists with states to avoid duplication and to work share. This should be recognized in
       the report.

OIG Response to Agency Comment 4: The OIG changed the report as follows: (1) Added footnote 1 to
the first paragraph of chapter 2: “In May 2011, EPA provided the OIG the CWA Action Plan that covers
wider implementation of process improvements. The OIG did not verify the actions in the plan.”
(2) 4th bullet: Changed “No one” to “No single authority.” See response part 1 of 3 to Agency
Comment 1. (3) 6th bullet: Although the Region 7 Kaizen event was not intended to be a national model
at the time it was conducted, the process improvements identified at the event are planned have the
potential to be implemented in other regions (see footnote 1). (4) 7th bullet: Added footnote 2 to the first
paragraph of this section: “In May 2011, EPA provided the OIG the CWA Action Plan that covers
national requirements for PQR and SRF reviews. The OIG did not verify the actions in the plan.”
(5) 8th bullet: Made first suggested change and added footnote 3 to the last paragraph of this section:
“Agency Comment 4 (appendix A) provided to the OIG in May 2011 stated, ‘ The Director of OECA’s



11-P-0315                                                                                                 29
Office of Compliance has committed EPA to initiate a process to integrate the PQR and the SRF reviews
in FY 2011.’ The OIG did not verify the actions taken related to this commitment.” (6) 9th bullet: Added
footnote 4 to the last paragraph of this section: “Agency Comment 4 (appendix A) provided to the OIG in
May 2011 stated, ‘Regions now share inspection lists with states to avoid duplication and to work share.’
The OIG did not verify the actions taken.”

    Comment 5: The report pairs data collection and reporting activities, whereas the EPA views these as
two distinct activities. The focus of the discussion at the Kaizen event was on reporting activities, and,
therefore, the EPA requests the removal of references to data collection in the report. The EPA suggests
the following edits be made to the report to accurately portray the actions that were the subject of the
effort:
    	 Region 7 Strategic Planning and Data Collection Improvements Not Fully Implemented by
         Region 7 and EPA Headquarters, page 9: Suggest the following edit. “Region 7 Strategic
         Planning and Data Collection Reporting Improvements Not Fully Implemented by Region 7 and
         EPA Headquarters”
    	 Region 7 Strategic Planning and Data Collection Improvements Not Fully Implemented by
         Region 7 and EPA Headquarters, page 9: First sentence. Suggest the following edit.
         “Participants in the Region 7 Kaizen event identified process improvements in the areas of annual
         strategic planning and data collection and reporting for the NPDES program.”
    	 Region 7 Strategic Planning and Data Collection Improvements Not Fully Implemented by
         Region 7 and EPA Headquarters, page 9: Suggest the following edit. “Region 7 Strategic
         Planning and Data Collection Reporting Improvements Not Fully Implemented by Region 7 and
         EPA Headquarters”
    	 Region 7 Strategic Planning and Data Collection Improvements Not Fully Implemented by
         Region 7 and EPA Headquarters, page 9: First sentence. Suggest the following edit.
         “Participants in the Region 7 Kaizen event identified process improvements in the areas of annual
         strategic planning and data collection and reporting for the NPDES program.”
    	 Data Collection and Reporting, page 11: Suggest the following edit: “Data Collection and
         Reporting”
    	 Data Collection and Reporting, page 12: Even though Region 7 did not fully implement the
         data collection and reporting process improvement, we believe the benefit of streamlining
         reporting though the Burden Reduction Initiative and fully implemented ICIS-NPDES should be
         considered for other regions and states."

OIG Response to Agency Comment 5: The OIG agrees and changed the report as suggested.

    Comment 6: In the Data Collection and Reporting section on page 11, the report states, “The Region
7 Kaizen event identified 24 reports that states were required to provide EPA. In accordance with the EPA
Burden Reduction Initiative, event participants identified four NPDES reports for elimination, one of
which could be eliminated by combining it with another report. However, a June 2009 survey of event
participants indicated that the number of required state reports submitted to EPA after the event had not
changed.” The EPA has talked to the key participants at the Kaizen event, and none of them can recall
which four reports were identified for elimination nor can the EPA locate records which identify the
reports. The EPA would like the OIG to identify which four NPDES reports were identified for
elimination, if the OIG's notes reveal that information. In addition, while it is true that the total number of
required reports did not change between the Kaizen event and June 2009, that is largely because
elimination of many of the 24 reports would require additional resources, reaching consensus by states to
submit data into a single data system (e.g., ICIS) versus multiple data systems which is the current
practice, as well as changes to EPA's NPDES regulations in order to ensure consistency across states. As




11-P-0315                                                                                                   30
noted below, many of these rule changes are being addressed in the NPDES Electronic Reporting rule.
The discussion in the report should reflect this.


OIG Response to Agency Comment 6: The eliminated reports are High Priority (10 Years Old and
Older), Double Violations (SSSR), Permits with Trades, Action Items for SRF. The OIG provided this
information previously. Footnote 6 covers the remainder of this comment. See response to Agency
Comment 7 below.

    Comment 7: In the Data Collection and Reporting section, on page 12 the report states, “Kaizen
event participants did not appear to pursue report reduction as an event outcome because they saw the
primary benefit of the Kaizen event to be ‘improved communication.’ Even though Region 7 did not
implement the data collection and reporting process improvement, we believe the benefit of streamlining
reporting though the Burden Reduction Initiative and fully implemented ICIS-NPDES should be
considered for other regions and states.”

    The EPA disagrees with the underlined portions of the statement above. Kaizen event participants did
not pursue report reduction as an event outcome, not because they saw the primary benefit of the Kaizen
event to be improved communication, but because report reduction requires rule changes. The EPA used
much of this information during discussions involving the Burden Reduction initiative and Electronic
Reporting rule. Rule changes are being addressed in the NPDES Electronic Reporting Rule. In addition,
reporting process improvements and streamlining reporting though the Burden Reduction Initiative and
providing a fully-implemented ICIS-NPDES is being considered for other regions and state; the report
should reflect this fact.

OIG Response to Agency Comment 7: The OIG added footnote 6 in the last paragraph of this section:
“Agency Comments 6 and 7 (appendix A) provided to the OIG in May 2011 provided reasons why
Kaizen event participants did not pursue report reduction as an event outcome. First, elimination of many
of the 24 reports would require additional resources. Second, using a single data system would require
reaching consensus. Third, additional report reduction requires rule changes. The Agency also stated that
‘reporting process improvements and streamlining reporting though the Burden Reduction Initiative and
providing a fully-implemented ICIS-NPDES is being considered for other regions and state.’ The OIG did
not verify the reasons or consideration during the audit.”

    Comment 8: The information on use of ICIS·NPDES is not current in the report. The EPA suggests
the following edits to accurately portray the current state of the transition to full implementation of ICIS­
NPDES:
    	 Data Collection and Reporting, page 11: Fourth paragraph, third sentence. Suggest the
         following edit. “As of June 2009 April 2011, ICIS-NPDES supports 34 states, all 10 EPA
         regions, all territories, the District of Columbia, and two tribes. 31 states and territories were
         solely using ICIS-NPDES. EPA will continue to work with the remaining 16 states on their
         migration to ICIS·NPDES over the next two years. plans to support the remaining 22 NPDES
         states' moves from PCS to ICIS-NPDES ever the next few years.”

OIG Response to Agency Comment 8: The OIG added footnote 5 to the third paragraph of this section:
“Agency Comment 8 (appendix A) provided to the OIG in May 2011 included an update to status: ‘As of
April 2011, ICIS-NPDES supports 34 states, all 10 EPA regions, all territories, the District of Columbia,
and two tribes. EPA will continue to work with the remaining 16 states on their migration to
ICIS•NPDES over the next two years.’ The OIG did not verify the updated status.”




11-P-0315                                                                                                   31
Miscellaneous Comments and Suggested Edits:
   I. 	 EPA and States Emphasizing Process Improvement, page 4 and 5: The 2010 Administrator
        memo, MOU with ECOS and 2011 NPM Guidance are all from after the 2008 event and do not
        show that agencies have used events such as Kaizen for the past few years.
   2.	 Resolution of Permit Technical Issues and Communication, page 7: First paragraph, last
        sentence. Suggest the following edit: add at the end of the sentence, “... or because their processes
        already incorporated some or all of the concepts identified in Region 7.”
   3.	 Oversight reviews of the States, page 8: Second paragraph, second sentence. Suggest the
        following edit: “The headquarters Permit Quality Review (PQR) is a combination of file reviews
        done in by headquarters and during state site visits.”
   4.	 Oversight Reviews of the States, page 9: Third full paragraph, first sentence. “To increase
        efficiency, OW had Region 7 complete the headquarters reviews along with the enforcement and
        regional reviews.” OW did not direct Region 7 to conduct a headquarters review. The EPA
        suggests the following replacement for the above sentence: “To increase efficiency, Region 7
        conducted permitting reviews of states in conjunction with the enforcement review and utilized
        tools developed by OW for use in headquarters' periodic Permit Quality Reviews.”
   5.	 Recommendations, page 12: Recommendation l.c. Suggest the following edit: Implementing
        coordinated and integrated strategic planning nationwide for the NPDES program, including
        consideration of the new approaches under the CWA action plan.
   6.	 Chapter 3, page 13: Second sentence. Suggest the following edit: “While EPA and states
        collaborated to create guidance for Kaizen events, such as the September 2006 Lean in
        Government Starter Kit ...”
   7.	 National Policy Needed for Business Process Improvement, page 16: Second paragraph, first
        sentence. Suggest the following edit: change “OW” to “EPA.”
   8.	 National Policy Needed for Business Process Improvement, page 16: Second paragraph,
        fourth sentence. Suggest the following edits: “While this interim guidance outlined steps for
        national implementation focused on annual planning and joint workplans that were similar to
        some of the new processes that emerged from the Region 7 Kaizen event, other process
        improvements from the event were dealt with in other documents and processes were not
        included in the guidance.”
   9.	 Funds at Risk for Future Business Process Improvement Events, page 17: First paragraph.
        Suggest the following edit: at the end of the paragraph add, “However, increased resources will
        be needed to conduct additional Kaizen events whether related to NPDES or other programs.”
   10. Recommendations, page 18: Suggest the following edit for recommendation 5: “Direct OP to
        establish an overall office or a steering committee for advocating and overseeing...”

OIG Response to Agency Miscellaneous Comments and Suggested Edits:
#1: The report should remain unchanged. The OIG used the 2010 Administrator memo, MOU with
ECOS, and 2011 NPM Guidance as criteria to support EPA’s use of approaches such as Kaizen to
improve government processes contributing to environmental progress.
#2: Agree with slightly modified wording. Added “…because their processes incorporated some or all of
the concepts identified in Region 7.”
#3, #4, #6 and #7: Agree and changed the report as suggested.
#5: The report should remain unchanged. Nationalization of policy is a key OIG recommendation
component.
#8: Agree with the first edit and changed the report as suggested. For the second edit, added footnote 8.
The Agency covered other process improvements from the event in other documents and processes.
#9: The report should remain unchanged. Suggested edit adds information and introduces ideas not
relevant to the scope of this section of the report.




11-P-0315                                                                                                 32
#10: The report should remain unchanged. OP does not have the authority to establish an overall office or
a steering committee that involves multiple program offices and regions.




11-P-0315                                                                                              33
                                                                             Appendix B

                                   Distribution
Office of the Administrator
Deputy Administrator
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Assistant Administrator, Office of Water
Assistant Administrator, Office of Enforcement and Compliance Assurance
Associate Administrator for Policy
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Information
Regional Administrator, Region 7
Audit Followup Coordinator, Office of the Administrator
Audit Followup Coordinator, Office of Water
Audit Followup Coordinator, Office of Enforcement and Compliance Assurance
Audit Followup Coordinator, Region 7




11-P-0315                                                                            34
